                                                       T OF HOMEEA                                    CURIT
                                                     Office of Inspector General
                                                 Atlanta Field Office - Audit Division
                                                      3003 Chamblee Tucker Rd
                                                          Atlanta, GA 30341

                                                                 November 18,2003

MEMORANDUM

TO:                           Kenneth 0 . Burris, Jr.


FROM:
                              Field Office Director

SUBJECT:                      Bibb County, Georgia
                              FEMA Disaster 1033-DR-GA
                              Audit Report No. DA-04-04


The Office of Inspector General (OIG) audited public assistance funds awarded to Bibb
County, Georgia. The objective of the audit was to determine whether the County
accounted for and expended FEMA funds according to federal regulations and FEMA
guidelines.

The County received an award of $2.2 million from the Georgia Emergency Management
Agency, a FEMA grantee, for debris removal, emergency protective measures, and
restoration of facilities damaged as a result of Tropical Storm Alberto in July 1994. The
award provided 90 percent FEMA funding for 9 large projects1 and 45 small projects.
Audit work was limited to the $2,017,304 awarded and claimed under the nine large
projects (see Exhibit).

The audit covered the period July 1994 to July 2002. During this period, the County
received $1,8 15,573 of FEMA funds under the 9 large projects.

The OIG performed the audit under the authority of the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. The audit
included tests of the County's accounting records, a judgmental sample of expenditures,
and other auditing procedures considered necessary under the circumstances.

Notice: This report remains the property of the DHS Office of Inspector General (DHS-OIG) at all times and, as such, is not
to be publicly disclosed without the express permission of the DHS-OIG. Requests for copies of this report should be
immediately forwarded to the DHS Office of Counsel to the Inspector General to ensure strict compliance with all applicable
disclosure laws.



'According to FEMA regulations a large project cost $42,400 or more and a small project costs less than
$42,400.
                                 RESULTS OF AUDIT 


Except for questioned costs of $15,219 (federal share $13,697) resulting from excessive
and unsupported charges, the County properly accounted for and used FEMA funds.

A. Excessive Charges. Due to computation errors, the County's claim under Project
   80492 included $14,546 of excess charges for overtime and h n g e benefits.

    The County incurred $22,596 and $2,131 of overtime labor and fi-inge benefits costs,
    respectively, to administer the project. The h n g e benefits rate for overtime pay was
    9.43 percent, consisting of FICA taxes (7.65 percent) and workmen compensation
    insurance (1.78 percent). However, when computing the claim for fringe benefits,
    the County inadvertently omitted the cost of workmen compensation insurance.
    FEMA and GEMA officials identified this error during final inspection of the
    project, but made errors when re-computing the County's overtime labor cost claim.

    Specifically, the officials mistakenly reflected in the claim that the County incurred
    $35,889 of overtime cost under the project. This error resulted in excessive charges
    for overtime cost totaling $13,293 ($35,889 less $22,596). Further, the officials used
    the $35,889 figure as the base for computing $3,384 of h n g e benefit cost. This
    error resulted in excessive charges for fringe benefit cost totaling $1,253 ($3,384 less
    $2,13 1).

    Accordingly, the OIG questions the $14,546 ($13,293 + $1,253) of excessive
    charges.

B. Unsu~portedCharges. Federal regulation (44 CFR 13.20) requires the County to
   maintain supporting documentation for all cost claimed. However, under Project
   80492, the County's claimed $16,488 for 920 hours of equipment use, but had
   records showing only 867 hours of equipment usage at a cost of $15,8 15.
   Accordingly, the OIG questions the $673 of unsupported charges.

                                 RECOMMENDATION

The OIG recommends that the Regional Director, in coordination with the grantee,
disallow the $15,2 19 of questioned costs.

          DISCUSSION WITH              AGEMENT AND AUDIT FOLLOW-UP

The audit results were discussed with FEMA, grantee, and County officials on October 2,
2003. County officials concurred with the findings.

Please advise the Atlanta Field Office-Audit Division by January 18,2003, of the actions
taken to implement the recommendation. Should you have any questions concerning this
report, please contact George Peoples or me at (770) 220-5242.
                                                                  Exhibit

                    Bibb County, Georgia
              FEMA Disaster No. 1033-DR-GA
          Schedule of Claimed and Questioned Costs

Project          Amount          Amount               Amount
Number           Awarded         Claimed             Questioned
